<html>
<title> - ADVANCES IN THE SEARCH FOR LIFE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


                    ADVANCES IN THE SEARCH FOR LIFE

=======================================================================

                                 HEARING

                               BEFORE THE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 26, 2017

                               __________

                           Serial No. 115-11

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                                      
       
                           U.S. GOVERNMENT PUBLISHING OFFICE                    
24-467PDF                          WASHINGTON : 2017                     
                 
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0e697e614e6d7b7d7a666b627e206d616320">[email&#160;protected]</a> 
       

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         ZOE LOFGREN, California
MO BROOKS, Alabama                   DANIEL LIPINSKI, Illinois
RANDY HULTGREN, Illinois             SUZANNE BONAMICI, Oregon
BILL POSEY, Florida                  ALAN GRAYSON, Florida
THOMAS MASSIE, Kentucky              AMI BERA, California
JIM BRIDENSTINE, Oklahoma            ELIZABETH H. ESTY, Connecticut
RANDY K. WEBER, Texas                MARC A. VEASEY, Texas
STEPHEN KNIGHT, California           DONALD S. BEYER, JR., Virginia
BRIAN BABIN, Texas                   JACKY ROSEN, Nevada
BARBARA COMSTOCK, Virginia           JERRY MCNERNEY, California
GARY PALMER, Alabama                 ED PERLMUTTER, Colorado
BARRY LOUDERMILK, Georgia            PAUL TONKO, New York
RALPH LEE ABRAHAM, Louisiana         BILL FOSTER, Illinois
DRAIN LaHOOD, Illinois               MARK TAKANO, California
DANIEL WEBSTER, Florida              COLLEEN HANABUSA, Hawaii
JIM BANKS, Indiana                   CHARLIE CRIST, Florida
ANDY BIGGS, Arizona
ROGER W. MARSHALL, Kansas
NEAL P. DUNN, Florida
CLAY HIGGINS, Louisiana
                            C O N T E N T S

                             April 26, 2017

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................     4
    Written Statement............................................     6

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................     8
    Written Statement............................................    10

Statement by Representative Brian Babin, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    12
    Written Statement............................................    13

Statement by Representative Ami Bera, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    14
    Written Statement............................................    16

                               Witnesses:

Dr. Thomas Zurbuchen, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration 
  (NASA)
    Oral Statement...............................................    19
    Written Statement............................................    21

Dr. Adam Burgasser, Professor of Physics, University of 
  California, San Diego and UCSD Center for Astrophysics and 
  Space Science; Fulbright Scholar
    Oral Statement...............................................    26
    Written Statement............................................    29

Dr. James Kasting, Chair, Planning Committee, Workshop on the 
  Search for Life Across Space and Time, National Academies of 
  Science, Engineering, and Medicine, Evan Pugh Professor of 
  Geosciences, Pennsylvania State University
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Seth Shostak, Senior Astronomer, SETI Institute
    Oral Statement...............................................    56
    Written Statement............................................    58

Discussion.......................................................    64

             Appendix I: Answers to Post-Hearing Questions

Dr. Thomas Zurbuchen, Associate Administrator, Science Mission 
  Directorate, National Aeronautics and Space Administration 
  (NASA).........................................................    82

Dr. Adam Burgasser, Professor of Physics, University of 
  California, San Diego and UCSD Center for Astrophysics and 
  Space Science; Fulbright Scholar...............................    88

Dr. James Kasting, Chair, Planning Committee, Workshop on the 
  Search for Life Across Space and Time, National Academies of 
  Science, Engineering, and Medicine, Evan Pugh Professor of 
  Geosciences, Pennsylvania State University.....................    89

Dr. Seth Shostak, Senior Astronomer, SETI Institute..............    92

 
                    ADVANCES IN THE SEARCH FOR LIFE

                              ----------                              


                       WEDNESDAY, APRIL 26, 2017

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Committee met, pursuant to call, at 10:08 a.m., in Room 
2318 of the Rayburn House Office Building, Hon. Lamar Smith 
[Chairman of the Committee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Chairman Smith. The Committee on Science, Space, and 
Technology will come to order,
    Without objection, the Chair is authorized to declare 
recesses of the Committee at any time.
    Welcome to today's hearing titled ``Advances in the Search 
for Life.''
    Before I recognize myself and the Ranking Member for an 
opening statement, let me explain that both Republican and 
Democratic caucuses are now meeting. For reasons you can 
imagine, those meetings are going long, and there is much 
discussion, which means that everybody here left their caucuses 
early, so I hope you will consider that to be a form of 
compliment. But we do expect more Members to come in in the 
future few minutes.
    I'll recognize myself for an opening statement.
    For centuries, humanity has wondered if life might exist 
elsewhere in the cosmos. Only in the last few decades have we 
been able to detect the existence of other worlds.
    Twenty-five years ago, we didn't know that planets existed 
beyond our solar system. Today, we have confirmed the existence 
of over 3,400 exoplanets that orbit other suns. And we continue 
to make new discoveries.
    Today we can observe planets that may harbor life. Earlier 
this month, scientists announced the first detection of an 
atmosphere around an Earth-like planet outside our solar 
system. This is a significant step towards being able to 
determine whether some form of life exists there.
    Last week, scientists announced the discovery of another 
Earth-like exoplanet in the habitable zone of a star 40 light-
years away--close by in cosmic terms. It is a prime target for 
future investigation.
    Even within our own solar system, scientists have found 
intriguing possibilities of habitability. NASA recently 
announced the discovery of hydrogen gas in plumes shooting from 
the icy surface of Saturn's moon Enceladus.
    Organisms on Earth use hydrogen in a process to create 
nutrients. Perhaps simple organisms living near the moon's 
hydrothermal vents could use a similar process.
    Hopefully, NASA will find similar conditions when it sends 
a spacecraft to investigate Jupiter's moon Europa, where 
scientists have identified plume-like features.
    The United States pioneered the field of astrobiology and 
continues to lead the world in this type of research. Since its 
beginning, NASA has searched for life beyond Earth and has 
conducted numerous scientific investigations.
    Supported by NASA, the 2017 Astrobiology Science Conference 
is meeting this week in Mesa, Arizona. The theme of the 
conference is ``Diverse Life and its Detection on Different 
Worlds.''
    The NASA Transition Authorization Act of 2017, which 
President Trump signed into law last month, ensures continued 
American leadership in astrobiology and the search for life. It 
establishes ``the search for life's origin, evolution, 
distribution, and future in the universe'' as a fundamental 
objective for NASA. To accomplish this, the bill directs NASA 
and the National Academies to develop an exoplanet exploration 
strategy and an astrobiology strategy.
    The pursuit of evidence of life beyond our planet 
fascinates the American people. Programs like the James Webb 
Space Telescope and the Wide Field Infrared Survey Telescope, 
both of which the NASA Transition Authorization Act supports, 
will further advance our understanding of exoplanets and 
inspire the next generation of American explorers.
    We do not just look at places where life might be. We are 
laying the groundwork to go there. The National Academies 
highly recommended a mission to Europa. The Europa Clipper 
mission will greatly aid NASA's search for signs of life on 
Jupiter's moon.
    Private citizens, amateur astronomers, and non-government 
organizations also play an important role in our search for 
life. Private citizens and philanthropists fund organizations 
such as the SETI Institute, which searches for extraterrestrial 
intelligence. Citizen scientists conduct astronomical 
observations and analysis of vast astronomical data sets.
    Earlier this month, news came of a mechanic who used NASA 
data to help discover a new exoplanet system. This is a great 
example of citizen scientists at work. We should support more 
contributions from citizen scientists. It enhances public 
engagement and helps encourage the next generation of young 
students to pursue careers in astronomy, astrophysics and 
astrobiology.
    It is human nature to seek out the unknown and to discover 
more about the universe around us. Many Americans often gaze 
into the beauty of the night sky in awe. We rightfully wonder 
if there is life beyond our pale blue dot.
    I thank our witnesses and look forward to hearing their 
testimony on recent developments in the field of astrobiology 
and the search for life elsewhere in the universe.
    [The prepared statement of Chairman Smith follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. That concludes my opening statement, and 
the Ranking Member, the gentlewoman from Texas, Eddie Bernie 
Johnson, is recognized for hers.
    Ms. Johnson. Thank you very much, Mr. Chairman, and good 
morning, and we welcome our witnesses.
    Humanity's centuries-old quest to understand our place in 
the universe has gained significant ground in recent years. 
Geologists are uncovering evidence of the oldest life forms in 
Earth's geological record. The age of these fossils indicates 
that, as soon as conditions were right on Earth, life appeared. 
That discovery raises profound questions. Has the same thing 
occurred on other bodies within and beyond our solar system? Is 
the genesis of life a common occurrence throughout the 
universe?
    Planetary scientists continue to find new environments 
within our solar system with the potential to harbor life. A 
key requirement for life as we know it is water and the mantra 
for the search for life beyond Earth has been to ``follow the 
water.'' Recent discoveries indicate that our solar system has 
an abundance of it. NASA's Mars Reconnaissance Orbiter 
discovered intermittent flows of liquid water on or just below 
the Martian surface. The Hubble Space Telescope has sent back 
images of what appear to be intermittent water plumes gushing 
from the surface of Jupiter's moon, Europa. And the NASA 
Cassini mission has revealed evidence of hydrothermal activity 
in the subsurface water ocean of Saturn's moon, Enceladus. With 
indications of water on several other solar system bodies 
including asteroids and dwarf planets, and moons of Jupiter and 
Saturn, it appears that at least one condition for habitability 
is relatively common throughout our solar system.
    How do recent discoveries of water and habitable 
environments in our own solar system inform the search for life 
on planets orbiting other stars? NASA's Kepler mission has more 
than doubled the number of known exoplanets, bringing 
astronomers closer to finding an elusive Earth twin. The 
upcoming launch of the James Webb Space Telescope and the 
Transiting Exoplanets Survey Telescope will provide more 
opportunities to study these systems and to uncover new ones.
    There appear to be many possible environments to search for 
life, both within our solar system and beyond. To narrow down 
the targets for research and exploration, scientists are 
working to understand fully how life originated here on Earth.
    The study of Earth's history, the early forms of life on 
Earth, and how the two evolved together is critical to this 
effort. And so, the search for life truly is an 
interdisciplinary endeavor that draws on expertise in core 
science disciplines like biology, geology, chemistry, physics, 
and astronomy. The strength of these core disciplines is 
central to making maximum progress in the search for life 
beyond Earth, and that's why we need to be committed to keeping 
America's research enterprise strong. We need to continue to 
invest as a Nation in research and development, not cut back.
    I feel fortunate to be serving on the Science Committee at 
a time when progress is being made so rapidly in the search for 
life beyond Earth, and I look forward to hearing about that 
progress from our witnesses.
    With that, I yield back, Mr. Chairman.
    [The prepared statement of Ms. Johnson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Ms. Johnson.
    And the Chairman of the Space Subcommittee, the gentleman 
from Texas, Mr. Babin, is recognized for his opening statement.
    Mr. Babin. Thank you, Mr. Chairman. Great to see everybody. 
Thanks for being here.
    The science of astronomy, astrophysics and astrobiology 
expands mankind's understanding of our universe. It seeks to 
answer fundamental questions as to the nature of our Universe, 
our place within it, and whether there is life beyond Earth.
    NASA has a long history of space-based astrophysics and 
astronomical science. Since the 1960s, NASA has operated space-
based observatories. Among the most famous of these are the 
Hubble Space Telescope, which has produced some of the clearest 
images of the Universe to date.
    Looking to the future, the James Webb Space Telescope, or 
JWST, set to launch in 2018, will be the most powerful space-
based observatory to date and will be used to search for 
planets outside our solar system that could harbor life.
    In my own district, at Johnson Space Center in Houston, 
NASA's historic Chamber A thermal vacuum testing chamber is 
being used for end-to-end optical testing of JWST in a 
simulated cryo-temperature and vacuum space environment. I'm 
proud to represent the hardworking men and women at Johnson 
Space Center contributing to JWST, our Nation's next great 
space-based observatory.
    Johnson Space Center is also home to NASA's Astromaterials 
and Curation Office. This office is responsible for the 
curation of extraterrestrial samples from NASA's past and 
future sample return--from future return missions. This is an 
exciting responsibility for Johnson Space Center and an 
important contribution in the search for life beyond Earth.
    We live in exciting times. The NASA Authorization Act of 
2017 provides strong direction for NASA to continue to search 
for life and advance the science of astronomy, astrophysics and 
astrobiology. It is quite possible that with continued efforts, 
humanity will finally answer the question and know definitely 
whether life exists on other worlds.
    I thank today's witnesses for joining us today and I look 
forward to hearing your testimony, and I yield back, Mr. 
Chairman.
    [The prepared statement of Mr. Babin follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Mr. Babin.
    And the gentleman from California, Mr. Bera, the Ranking 
Member of the Space Subcommittee, is recognized for an opening 
statement.
    Mr. Bera. Thank you, Mr. Chairman, and thank you for 
holding this hearing on the Advances in the Search for Life. 
That is a timeless question, the question ``Are we alone?''
    Over the centuries, whether it's the child lying on the 
grass looking up at the vastness of our universe to the most 
advanced astrophysicist thinking about this question, and that 
is exactly what we ought to be doing as a species--asking those 
questions. We're curious by nature. We're explorers. And if you 
think about what we're discovering and what we have discovered 
in recent years from the deep oceans on the moons of Enceladus 
and Europa, to the surface of Mars, the rapidity of findings 
habitable planets, you know, vastly moves us forward to 
answering that question: ``Are we alone?''
    Now, what we may discover is not necessarily species that 
look like us but what we may discover are the building blocks 
of life, looking for water, looking for organic molecules, 
looking for bacteria.
    But when that happens, and inevitably that discover will 
likely happen in our lifetimes, the disruption that answers 
that question of are we alone is remarkable. I mean, if you 
think about 1997 with the Cassini space mission, we didn't know 
what we were going to discover, and yet, you know, we're seeing 
plumes of spewing material from Enceladus, let alone flying 
through those plumes and discovering what we may discover.
    So we live in this remarkable time. The Chairman of the 
Space Subcommittee talked about the advances and discoveries of 
Hubble and Hubble's sibling that will launch shortly, James 
Webb, what that's going to allow us to discover about who we 
are, where we are, and where we go from here. You know, again, 
this is a remarkable time.
    You know, the energy we saw this past weekend with 
thousands if not hundreds of thousands of folks marching around 
the country in support of science, around the world, in fact, 
these are discoveries that are not just unique to who we are as 
the United States but to who we are as humanity, and again, you 
know, I am encouraged by the Chairman and the President's 
budget of the support for NASA funding and the support for 
continuing to explore and look for that next discovery. You 
know, this is incredibly important. At the same time as we make 
those discoveries, it helps us better understand who we are as 
a planet on Earth, how we evolved and where we may go next.
    So as we move forward, as we start looking at NASA's 2018 
budget, you know, let's make sure we continue to find that 
exploration externally but we also understand NASA's multi-
mission role here on Earth as well, that we continue to 
encourage, you know, the basic investments in basic science 
research in astrobiology and that search for life, and again, 
that we understand as we're going through the 2018 budget 
debate that we understand the impacts of cutting budgets and we 
continue to support NASA's multiple role.
    So, you know, I think this is a great time for this 
hearing. This is an exciting time in that search for an answer 
to the question ``Are we alone?''
    And with that, I yield back.
    [The prepared statement of Mr. Bera follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. McNerney. Will the gentleman yield?
    Mr. Bera. Sure, I'll yield.
    Mr. McNerney. I just want to thank the Chairman for this 
hearing.
    This is an exciting hearing, but the only definitive answer 
possible is the affirmative. We can never answer definitively 
that there's no life outside of the Earth. So that's one of our 
challenges, but nothing has the ability to capture the 
imagination, the enthusiasm of people that the possibility of 
extraterrestrial life. So you all have the ability to really 
capture the American people's imagination and attention, and we 
need that now. We need people to be enthusiastic about science, 
so my hat's off to you, and I encourage you to do the best you 
can.
    With that, I yield back.
    Chairman Smith. Thank you, Mr. Bera.
    Let me introduce our panelists, and let me just say ahead 
of time that our hearings are always this bipartisan. You're 
the happy recipients of not only great attendance but great 
interest as well.
    Our first witness today is Dr. Thomas Zurbuchen, Associate 
Administrator of the Science Mission Directorate at NASA. Dr. 
Zurbuchen previously served as a Professor of Space Science and 
Aerospace Engineering at the University of Michigan. He has 
worked on several NASA science missions including Ulysses, the 
MESSENGER spacecraft to Mercury, and the Advanced Composition 
Explorer. He earned both his master's of science degree and his 
Ph.D. in physics from the University of Bern in Switzerland.
    Our second witness today is Dr. Adam Burgasser, Professor 
of Physics at the University of California in San Diego. Dr. 
Burgasser was awarded a 2017-18 Fulbright Scholarship to 
conduct astrophysical research in works with University of 
California-San Diego Center for Astrophysics and Space Science. 
He contributed to the discovery of the TRAPPIST-1 system and 
currently conducts research in physics. He specifically 
investigates the lowest mass stars, coldest brown dwarves, and 
exoplanets. He earned his bachelor's of science in physics at 
the University of California-San Diego and his Ph.D. in physics 
from the California Institute of Technology.
    Our third witness today is Dr. James Kasting, Chair of the 
Planning Committee of the Workshop on the Search for Life 
Across Space and Time at the National Academies of Science, 
Engineering and Medicine. He also is an Evan Pugh Professor of 
Geosciences at Pennsylvania State University. He spent two 
years at the National Center for Atmospheric Research and seven 
years in the Space Science Division at the NASA Ames Research 
Center. Dr. Kasting also chaired NASA's Exoplanet Exploration 
Program Analysis Group from 2009 to 2011. He earned his 
undergraduate degree in chemistry and physics from Harvard 
University and his Ph.D. in atmospheric sciences from the 
University of Michigan.
    Our fourth witness today is Dr. Seth Shostak, Senior 
Astronomer at the SETI Institute. For ten years, Dr. Shostak 
chaired the International Academy of Astronautics SETI 
Permanent Committee. Dr. Shostak has written, edited, and 
contributed to a half-dozen books on the search for life. His 
most recent work, Confessions of an Alien Hunter, details the 
history and scientific methodology of SETI. Dr. Shostak gives 
approximately 60 presentations annually and is the regular host 
of the SETI Institute's weekly 1-hour science radio show, Big 
Picture Science. Dr. Shostak earned an undergraduate degree in 
physics from Princeton University and a doctorate in astronomy 
from the California Institute of Technology.
    We welcome you all, and Dr. Zurbuchen, if you will begin?

               TESTIMONY OF DR. THOMAS ZURBUCHEN,

                    ASSOCIATE ADMINISTRATOR,

                  SCIENCE MISSION DIRECTORATE,

                      NATIONAL AERONAUTICS

                AND SPACE ADMINISTRATION (NASA)

    Dr. Zurbuchen. I'd be glad to. Mr. Chairman and Members of 
the Committee, this is an exciting time for exploration and 
discovery, and especially the search for life elsewhere, and 
I'd like to begin by expressing our gratitude for the 
Committee's long-term support of our efforts in this area. In 
particular, we are pleased by the Committee's inclusion of a 
provision in the recently passed Authorization Act that makes 
astrobiology and the search for life part of NASA's mission. We 
are not only committed but also enthusiastic about 
accomplishing the objectives that the Congress and the 
President have laid out for us. Furthermore, NASA is initiating 
work with the National Academies to develop science strategies 
for astrobiology and the study of exoplanets as requested.
    As part of our astrobiology effort, NASA supports research 
that leads to a better understanding of how life emerged and 
evolved on Earth, what conditions make any environment in our 
universe capable of harboring life, and what is the potential 
distribution of such worlds are with life beyond Earth. To 
fully engage in this pursuit, we need a convergence of many 
fields--biology, geology, astronomy, planetary sciences, Earth 
sciences, and many other disciplines. Together these 
researchers from these fields are exploring one of the greatest 
questions of our times. For example, just two weeks ago, NASA's 
Cassini Mission confirmed the presence of hydrogen from plumes 
of Saturn's moon Enceladus while our Hubble team announced the 
second observations of possible plumes on Jupiter's moon 
Europa. Both discoveries displayed a potential of life-enabling 
energy sources in oceans hidden away from our view beyond the 
icy crust and a confirmation which will be very significant for 
this science. That's because scientists believe the plumes are 
spewing from cracks of these moons icy shells with material 
that are indicative of hydrothermal activity in their ocean 
floors, and we know from Earth that those parts of our world 
are spaces with lots of life, and while we haven't found 
definitive signs of life elsewhere just yet, our search is 
making remarkable progress, and astrobiology is the focus of a 
growing number of NASA missions.
    Mars 2020, our next rover after Curiosity, will continue to 
advance this search by investigating a region of Mars where the 
ancient environment may have been favorable to microbial life. 
Science instruments on the rover will provide high-resolution 
imaging and spectroscopy in many ways for characterizing rocks 
and soil from a distance. The Mars 2020 mission will also 
search for signs of past life, and throughout its investigation 
will collect samples that we hopefully can return in the future 
back to Earth to the best labs we have.
    NASA is currently developing a Europa Clipper Mission, 
which will conduct a detailed reconnaissance of Europa and 
investigate whether the icy moon could harbor conditions 
suitable for life. The promise of Europa Clipper is increasing 
day to day. If the potential plumes are linked to the 
subsurface oceans, studying their composition would help 
scientists investigate the chemical makeup of Europa's 
potentially habitable environment while minimizing the need to 
drill through layers of ice.
    Beyond our solar system, a transformation of understanding 
is taking place regarding planets around other stars--
exoplanets. I was in grad school when the first planet orbiting 
another star was announced. I still remember it vividly the 
day, the moment when I learned about this. It was so exciting, 
and that was just the beginning of an avalanche of discoveries. 
You mentioned we have close to three and a half thousand of 
such planets found and discovered elsewhere and billions more 
are waiting to be revealed in our galaxy alone.
    This February, NASA's Spitzer Space Telescope team 
announced the discovery of seven Earth-sized planets, the most 
ever found around a single star, TRAPPIST-1, and I'll leave up 
to you, Dr. Burgasser, to kind of fill in the details. It's 
really exciting, and discoveries are coming out by the day on 
this one.
    NASA's Spitzer, Hubble and Kepler space telescopes will 
continue to help astronomers plan for such follow-up studies 
using NASA's upcoming James Webb Telescope launching in 2018. 
With much greater sensitivity, Webb will be able to detect the 
chemical fingerprints of water, methane, organics, other 
important molecules that really are related, we believe, to 
life and the factor that help us assess whether these worlds 
have an ability to harbor life.
    With all this activity related to the search of life in so 
many different areas, we are on the verge of one of the most 
profound discoveries ever. Thank you.
    [The prepared statement of Dr. Zurbuchen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Zurbuchen.
    And Dr. Burgasser.

                TESTIMONY OF DR. ADAM BURGASSER,

                     PROFESSOR OF PHYSICS,

                   UNIVERSITY OF CALIFORNIA,

                 SAN DIEGO AND UCSD CENTER FOR

                ASTROPHYSICS AND SPACE SCIENCE;

                       FULBRIGHT SCHOLAR

    Dr. Burgasser. Thank you, Chairman Smith, Ranking Member 
Johnson, and esteemed Members of the Committee. It is an honor 
to share with you today recent discoveries and future 
opportunities in the search for potentially habitable worlds 
and life amongst the smallest stars.
    I speak today as a representative of the international team 
that discovered the seven-planet system around the star 
TRAPPIST-1, a system that harbors as many as three potentially 
habitable Earth-size worlds. This and other recent discoveries 
represent the beginning of an era of exoplanet exploration that 
in the next 5 to ten years will allow us to identify truly 
habitable worlds and possibly life beyond Earth. These 
transformative advances addressing one of humanity's most 
persistent questions--are we alone?--are fully achievable 
through a diverse portfolio of research programs led by U.S. 
scientists and supported by federal funding to NASA, NSF and 
other science agencies. Slide, please.
    [Slide.]
    Today I will focus my testimony on the opportunities 
afforded by the lowest mass stars. When we look up in a clear 
night sky, most of the stars we see are hot, massive and 
distant. This visual sample does not reflect our Milky Way 
galaxy's actual stellar population, which is dominated by cool, 
low-mass and dim stars barely perceptible, even with the 
largest telescopes. Next slide, please.
    [Slide.]
    These low-mass stars outnumber sun-like stars five to one 
and include some of our nearest stellar neighbors, many 
discovered just in the past five to ten years, thanks to 
deployment of advanced infrared detector technology and 
missions such as NASA's Wide field Infrared Survey Explorer.
    The search for potentially habitable worlds around these 
scars is a search for terrestrial planets with surfaces on 
which liquid water can persist. Such planets reside in the 
Goldilocks habitable zones around stars--not too hot, not too 
cold. For low-mass stars, this habitable zone can be up to 20 
times closer to the star than Earth is to the sun, which makes 
such planets easier to find and easier to study. Next slide, 
please.
    [Slide.]
    Thanks to public investment in technology, facilities and 
people, this search has borne fruits. In 2014, the NASA Kepler 
spacecraft team reported discovery of Kepler-185F, the first 
Earth-size world in the habitable zone of another star, work 
led by my former classmate and San Diego native, Dr. Lisa 
Quintana, now at NASA Goddard.
    Just last year, it was announced that the nearest star to 
our sun, Proxima Centauri, has a super-Earth planet orbiting 
its habitable zone. Next slide, please.
    [Slide.]
    The University of Puerto Rico at Arecibo's Planet 
Habitability Lab tabulates 12 very likely habitable worlds 
identified to date, all of which orbit stars less massive than 
the sun. Next slide, please.
    [Slide.]
    The discovery of the TRAPPIST-1 system is a capstone to 
this endeavor and an example of how partnerships between 
universities, government agencies, and international 
collaborators can produce truly transformative results. 
TRAPPIST stands for the Transiting Planets and Planeteslmals 
Small Telescope, a facility operated by the University of 
Liege, Belgium, and led my colleague, Dr. Michael Gillon. I 
should say TRAPPIST is also the name of a popular Belgian beer.
    This facility is relatively modest: a robotic telescope 
with a 2-foot-wide mirror optimized for the search of planets 
around the lowest mass stars. Even the stars are modest. 
TRAPPIST-1 is only eight percent the mass of the sun and is 
about the size of Jupiter, yet our international team, which 
includes scientists, students, and engineers from two dozen 
institutions and 11 countries on five continents including U.S. 
researchers in the states of California, Maryland, 
Massachusetts, Texas, and Washington were able to mobilize our 
shared resources to make this exciting discovery. Next slide, 
please.
    [Slide.]
    Key to our success was NASA's Spitzer Space Telescope, 
America's flagship infrared space facility, that monitored 
TRAPPIST-1 for 21 days, revealing this amazing light curve. 
Each dip you see is one or more of the planets passing between 
the star and us, dimming the starlight by less than one 
percent. We detected 92 transits associated with seven planets, 
all around the size of the Earth, with orbital periods between 
1-1/2 and 18.8 days. The planets in this compact system fit 
easily within the orbit of Mercury and are so close that they 
gravitationally tug each other, causing measurable variations 
in their transit times. Such a compact system would be cooked 
if it was in our solar system but around a cool star like 
TRAPPIST-1, three of the planets, E, F and G, orbit within the 
star's habitable zone.
    With three changes for a habitable world, the TRAPPIST-1 
system is one of the most promising to date in the search for 
life beyond the solar system, but all indications are that this 
is just the tip of the iceberg.
    Chairman Smith mentioned the discovery around--of a super 
Earth around the habitable zone of a nearby star by the NSF-
funded MEarth project, and this will be joined by a space-based 
project TESS in the next year that we expect will discover 
hundreds of stars around other planets.
    Our generation is the first in human history to know that 
there are worlds beyond our solar system. Will the next 
generation know whether life exists on those worlds? We have 
the opportunity and responsibility to continue our Nation's 
legacy of exploration discovery so that our children and 
grandchildren can search for life in new ways.
    [The prepared statement of Dr. Burgasser follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Burgasser.
    And Dr. Kasting.

                TESTIMONY OF DR. JAMES KASTING,

                   CHAIR, PLANNING COMMITTEE,

                WORKSHOP ON THE SEARCH FOR LIFE

                     ACROSS SPACE AND TIME,

                 NATIONAL ACADEMIES OF SCIENCE,

                   ENGINEERING, AND MEDICINE,

              EVAN PUGH PROFESSOR OF GEOSCIENCES,

                 PENNSYLVANIA STATE UNIVERSITY

    Dr. Kasting. Chairman Smith, Ranking Member Johnson, and 
Members of the Committee, thank you for allowing me to testify 
at this hearing. I was selected for this spot because I chaired 
the Planning Committee for the recent National Academies' 
workshop on searching for life across space and time.
    In my written testimony, I've attempted to summarize key 
points made by various participants at that workshop. Here I 
will focus on two important new discoveries, one within our 
solar system and another outside of it. I should emphasize that 
I'm speaking on my own behalf as an active researcher and not 
on behalf of the National Academies.
    The new solar system measurement was made by NASA's Cassini 
spacecraft, which has been orbiting Saturn for the last 12 
years. Chairman Smith already mentioned this. One of the 
objects the Cassini has studied is Saturn's moon Enceladus, 
which is shown on the slide. Enceladus is of great interest to 
astrobiologists because, like Jupiter's moon Europa, it's 
thought to have a subsurface ocean. Part of the evidence for 
this ocean is a plume of material emanating from Enceladus' 
south pole. During its lifetime, Cassini has performed multiple 
passes through this plume, sampling the gases that make it up. 
Previous measurements had already determined that the plume 
consists mainly of water vapor with smaller amounts of carbon 
dioxide and methane.
    As many of you already know, NASA is about to bring the 
Cassini Mission to an end by plunging the spacecraft into 
Saturn sometime late this summer. With the end in sight, flight 
controllers have been taking more risks with the mission over 
the past two years. In 2015, Cassini made its deepest 
penetration yet through the plume, passing within 49 kilometers 
of the moon's surface. The mass spectrometer was also operated 
in a different mode that allowed it to measure molecular 
hydrogen. This in turn allowed researchers to estimate the 
amount of chemical energy available within Enceladus' ocean 
from the reaction between carbon dioxide and hydrogen to make 
methane. This reaction is used by methanogens here on Earth to 
power their metabolisms.
    The new results indicate there should be enough chemical 
energy available within the ocean to support methanogens. This 
of course does not mean that life is present on Enceladus, 
however, it suggests that the search for life there could be 
rewarding. Next slide, please.
    [Slide.]
    My second update concerns rocky planets that have been 
discovered orbiting within the habitable zones of nearby red 
dwarf stars, also known as M stars. Adam Burgasser just told 
you about the planets orbiting TRAPPIST-1 and about the other 
new exoplanet announced last week that orbits this M star LHS-
1140.
    All of these planets were discovered from the ground by 
looking for transits in which the planet passes in front of its 
parent star. During transit, some of the starlight passes 
through the planet's atmosphere, allowing its composition to be 
studied spectroscopically. This has been done previously for 
giant planets using the existing Hubble and Spitzer space 
telescopes but it will be done much more accurately by NASA's 
upcoming James Webb Space Telescope, JWST, which launches late 
next year. The hope is to look for the presence of possible 
biosignature gases, especially molecular oxygen, O2, which is 
produced by photosynthetic plants and algae here on Earth.
    A third new exoplanet discovery announced late last summer, 
which you also have heard about already, is a rocky planet 
orbiting within the habitable zone of the nearest M star, in 
fact, the nearest star, Proxima Centauri. This planet was 
discovered from the ground by a team of European astronomers 
using the radial velocity method. This technique uses the 
Doppler effect to look for the back-and-forth motion of the 
star caused by planets orbiting around it. Because the Proxima 
Centauri planet probably does not transit, it is harder to 
study with JWST. The planet is close enough, however, that it 
can potentially be characterized from the ground using planned 
30- to 40-meter telescopes. By again using the Doppler effect, 
researchers can separate the absorption lines in the planet's 
atmosphere from lines formed within the Earth's atmosphere, 
allowing them to look for biomarker gases such as oxygen and 
ozone.
    Ultimately, astrobiologists would like to look for Earth-
like planets orbiting more stars more like the sun. This will 
require large space-based direct imaging telescopes that have 
not yet been approved. The good news is that NASA is again 
studying them. Hopefully within the next 15 to 20 years, we'll 
be able to search for habitable planets and life around all the 
stars within the solar neighborhood.
    Thank you again for allowing me to testify at this hearing.
    [The prepared statement of Dr. Kasting follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Kasting.
    And Dr. Shostak.

                 TESTIMONY OF DR. SETH SHOSTAK,

               SENIOR ASTRONOMER, SETI INSTITUTE

    Dr. Shostak. Chairman Smith and Members of the Committee, 
thank you very much. I'm going to talk about the search for 
intelligent life, unlike what you're likely to find under the 
icy crusts of Enceladus. There may be life there. There are six 
other places in the solar system where you might find some 
biology but you'll need a microscope to see it, and it won't 
hold up its side of the conversation.
    Let me just say that in the 21st century, there are four 
things that I think are going to be very important that will be 
remembered a thousand years from now. One, we're finally 
understanding biology. That's going to lead to interesting 
questions like, you know, curing a lot of disease but also the 
issue of designer babies.
    Second, we're going to be moving into space, something that 
doesn't sound so attractive if you're going to go to the moon 
or Mars, not great places, but if you are talking about 
orbiting space colonies, great. Such colonies would serve as an 
inoculation against self-destruction of the human race here on 
Earth. If we wipe ourselves out, not to worry; there's still 
some humans in space.
    The third thing we're doing, and this is probably the most 
important, is inventing our successors: generalized artificial 
intelligence. The head of the AI operation at Stanford told me 
a couple years ago--I asked him will we have a machine that can 
write the great American novel by 2050. He looked up at me and 
said yes, then went back to sleep. Okay.
    The fourth thing that we're going to do is find life in 
space, and that's philosophically important. It might be 
important in other ways too, but at least philosophically.
    So how are we looking for life? You've heard the 
presentations here. There's a three-way horse race. One, we 
just go there and look. That's simple exploration. We go to 
places like Enceladus with spacecraft, grab some of the stuff 
being shot into space, bring it back, look at it under a 
microscope. Go to Mars, look around at Mars. That's where all 
the big money is. That's where NASA spends its money and the 
other space agencies around the world.
    The second thing to do is build space-based telescopes that 
can sniff the atmospheres of planets around other stars. Dr. 
Kasting has already alluded to that. Again, that's hundreds of 
millions of dollars. It's something we can do in the next 10 
years.
    And the third thing we can do is what's called SETI where 
we try and eavesdrop on signals being broadcast by other 
societies that at least have technology that would allow them 
to do that. There is essentially no federal money for that.
    All right. Let me talk a little bit about SETI. How do we 
go about that? What's different in the last five years. 
Certainly, the types of objects that we're pointing our 
antennas at has changed. In the old days, we would look at 
stars sort of like the sun because we know that stars like the 
sun at least have a planet where we have intelligent life, and 
I leave it to you to determine what's intelligence. In our 
field of work, if you can build a radio transmitter, you're 
intelligent. You can ask the guy next to you whether he can do 
that.
    The second thing that we are doing is improving the 
equipment. So let me just give you an idea. The TRAPPIST-1 
system has been mentioned here a couple of times. If you were 
in the TRAPPIST-1 system on one of those planets and you looked 
up in the sky, you would see, some of those other seven 
planets, and they would be big. They would be balls in the sky. 
You go out tonight, look to the east and you'll see Jupiter but 
it's just a point of light. Not true in TRAPPIST-1. You 
actually see them. Whereas it takes seven months to send a 
rocket to Mars, you could go from one TRAPPIST-1 world to the 
next during the course of a weekend.
    What all this means is that there are, to begin with, more 
planets in the TRAPPIST-1 system that could cook up life. That 
means more chances to win the lottery by cooking up life, and 
as soon as you've done that, that life will spread to the other 
worlds and it will spread because meteors will slam into one 
planet with life and carry bacteria or whatever to the next 
world in just a very short period of time. So it will infect 
all these worlds. If there's any intelligent life in the 
TRAPPIST-1 system, that will have colonized essentially all 
these worlds too. So this could be a mini-federation of 
planets, if you will. This is not just another world with life; 
this is an ecosystem if there's any life.
    We are using our Allen Telescope Array to look at the 
TRAPPIST-1 system, and we're using a situation in which we wait 
for the planets to line up and see if there's any difference in 
the amount of radio radiation coming our way because at that 
point you're looking down the communication pipeline between 
these planets.
    Finally, let me just say something about the technology. 
This experiment will only succeed if we can look at about a 
million or so star systems. That would take thousands of years 
with the current technology. Thanks to improvements mostly in 
computers, the search is speeding up by orders of magnitude. 
Over the next 20 years, we will be able to look at about a 
million other star systems, and I'd bet everyone a cup of 
coffee that we'll find something. I may have to buy a lot of 
coffee.
    Let me just conclude by saying the funding for all this is 
very limited. It's all private funding. There is no government 
money for doing this. Even though finding intelligent life 
would have the greatest impact on humanity, there's no federal 
funding, and as a consequence, the total number of people that 
work on this problem in the entire world is far fewer than the 
number of people sitting in the back row in this room.
    Thank you very much.
    [The prepared statement of Dr. Shostak follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Smith. Thank you, Dr. Shostak. Thank you all for 
your fascinating testimony, and I'll recognize myself for 
questions.
    And Dr. Shostak, let me address first a comment and then a 
question to you. The comment is this. I want to, I think for 
the first time publicly, thank you for exposing me about 2 
decades ago to SETI's methods of looking for the search for 
extraterrestrial intelligence when we spent what seemed like a 
long night at Arecibo, but that was my first real exposure, and 
it sort of set me on the track to be continually interested in 
the subject, so thank you for that.
    A couple of questions. One is, just to read from part of 
your written testimony. ``if we conjecture that there are 100 
thousand signaling societies in our galaxy, then we will have 
to scrutinize roughly one million star systems before detecting 
a transmission. This is approximately ten times the total 
sample of all SETI experiments undertaken since 1960.'' So 
we're just beginning the process. We have a long ways to go.
    You mentioned all the different ways we might search for 
extraterrestrial intelligence. What do you think is the best 
current method being used, is it radio, is it laser? What might 
it be? And what do you recommend?
    Dr. Shostak. Well, it's obviously hard to forecast what to 
do to succeed. It would be like asking Captain Jim Cook, two 
weeks out of England, what part of the Pacific is best to 
search for new islands. Obviously we don't know. But the radio 
searches are following a trajectory in terms of improvement. 
That's very easy to predict because it follows Moore's law. It 
just follows computer technology. And so we know that over the 
course of the next two decades, radio SETI will get at least 
100 times faster and maybe more.
    So I have a dog in this fight. I seem to think that that is 
a good way, but I have to say, we're also developing schemes 
for looking for flashing laser lights in the sky. If a laser--
if some society out there is aiming a laser beam at us a 
thousandth of a second long once every two weeks. nobody on 
Earth would ever know. We wouldn't know that. And it's worth 
looking for that because indeed, except for the transmissions 
we've been broadcasting into space since the second World War, 
there's no way that the aliens could know we're here. If 
they're more than 70 light-years away, they don't know that 
Homo sapiens exist. So maybe they just ping us intermittently 
to see if anybody's home.
    Chairman Smith. Thank you, Dr. Shostak.
    Dr. Zurbuchen, let me ask you the next question, which is, 
the Authorization Act that we just signed into law last month 
directs NASA to search for life in the universe, any form, any 
kind. How will NASA implement the directive in the NASA 
Authorization bill?
    Dr. Zurbuchen. Thanks so much for the question. First of 
all, there's a number--you should know that with me at the 
leadership of the Science Mission Directorate, this is one of 
the top three priorities that we're focused on, so it's a high-
level priority that we used to integrate research across 
disciplines. So the way we'll look at it is an 
interdisciplinary fashion, first of all. The second one is to 
recognize that we already have a series of missions that are in 
development. We've talked about them here. Trying to really 
deploy them in a strategic fashion.
    We're looking of course at the Academy's input and 
prioritization to help us with that because we think the 
Academy is exactly the right, like you directed, exactly the 
right voice for us to really exploit these assets the right 
way. Also, as we go forward and look at decadal guidance from 
other disciplines as they come forward, we expect that we'll 
also develop perhaps new technologies, new assets that will 
help in that search.
    Chairman Smith. Okay. Thank you.
    Dr. Burgasser, you mentioned that the most common type of 
star in our galaxy are the red dwarves, which you study, and 
those are fascinating slides you put up. What is the likelihood 
that we will find life near a red dwarf star?
    Dr. Burgasser. That is a very challenging question. I can 
only address that these red dwarf stars have a lot going for 
them in terms of being able to search for life on planets 
around them. They are the most numerous. They're also the 
nearest stars to our sun. It turns out that there are more 
terrestrial planets per Mdwarf than sun-like star. There're 
about terrestrial planets on average for all these low-mass 
stars. And the ability to measure their atmospheres is enhanced 
by their small sizes, the stars' small sizes.
    Now, there are things that are not going for small stars. 
These planets are very close to their stars so they are tidally 
locked, and we are still trying to understand what effect that 
could have on the climates of these planets, and they're also 
exposed to higher magnetic storms, the kind of magnetic storms 
we get from the sun but actually much more powerful because 
they are closer to their stars, and that may or may not have 
positive or negative implications for development of life on 
these planets.
    So these are active questions because we've only just 
started finding these planets. We are really approaching this 
from both theoretical and observational perspectives to 
understand what we might expect to find, but of course, the 
best thing to do is actually find this evidence and then we can 
provide an answer.
    Chairman Smith. And go from there.
    Dr. Burgasser. Yeah.
    Chairman Smith. Thank you.
    Let me squeeze in a last question maybe directed to Dr. 
Zurbuchen and also Dr. Shostak. Should NASA consider--and I 
think there's appropriate language in that authorization bill--
should NASA consider contracting out with organizations that 
might be searching for extraterrestrial intelligence?
    Dr. Shostak. I think my answer's a foregone conclusion.
    Chairman Smith. Yes.
    Dr. Shostak. Yes. No, I think so, and for several reasons. 
One, of course it would be more interesting to find it, I 
think, than--with all deference to the astrobiologists here, I 
think it would be very interesting, particularly to the public. 
The public's very interested in life but mostly in the 
intelligent variety. I make that statement without numbers here 
but I think that's true. And the other thing is, it would be 
philosophically very consequential. There are other possible 
sequelae. You could indeed maybe understand something they're 
saying in which case you're in touch with a society far more 
advanced than ours. I don't know what the consequences of that 
might be. I don't even think that it's very likely we would 
understand anything. But simply to know you're not the only kid 
on the block I think is--that's exploration that I think is 
worth doing.
    Chairman Smith. Thank you, Dr. Shostak.
    The gentlewoman from Texas, the Ranking Member, Ms. 
Johnson, is recognized for her questions.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I guess I will point this question to each of the panel 
members. How important do you think the sustained federal 
support for research of core science disciplines such as 
biology, geology, chemistry, physics and astronomy to the 
success of interdisciplinary fields of astrobiology, and to 
what extent would the budget cuts have on the impact of this 
research that's in progress now for search for life? What are 
the challenges to us?
    Dr. Zurbuchen. Let me answer the first part of your 
question of just how important it is, and I really do believe 
that to answer this question, is there life out there, is 
really a complex--it's not a yes-no kind of answer. The way to 
think about that is not that it's--it's really opening up a new 
areas of research with entirely new research questions that 
we've never seen. The way we do answer these questions, each 
one of those questions, whether it's hydrogen and the plumes of 
Enceladus relates to fundamental science that is underlying 
that, so how important is it to have this fundamental science 
is essential. It's the tools we use in every one of those 
questions to actually unlock the unknown.
    Dr. Burgasser. And so I will echo your comment that this is 
a fundamentally interdisciplinary nature. I'm actually teaching 
a writing course. Let me give out a shout-out to my students 
who have to watch this next week. And we bring together areas 
across the science disciplines but also beyond the science 
disciplines. Congressman Bera mentioned that this is a 
disruptive question that we're asking, are we alone, and so it 
doesn't just touch on science but it also touches on 
philosophy, legal issues, all kinds of issues. So at its core, 
we really need to have a very broad-based knowledge sort of 
system to understand both the question and also when we answer 
that question, what does it mean for humanity.
    Dr. Kasting. If I could just add that of course you need 
the support of the basic sciences at the basic level but we're 
also seeing the need for more coordination between planetary 
science and astronomy because those used to be--they are two 
separate divisions within NASA but with exoplanets, we share a 
common goal of understanding those planets, and so, you know, 
I've been happy to see that the two divisions in NASA have 
talking to each other, and I think that's very important in 
making progress in the future.
    Dr. Shostak. Well, I support what has been said here. 
Clearly, it is interdisciplinary, and it's also exciting 
science. It's also comprehensible science to Mr. and Mrs. Front 
Porch, if you will. If you ask your neighbor, hey, what do you 
think about the Europeans spending billions of dollars to find 
the Higgs Boson? Well, that's fundamentally important, but I 
doubt that they understand what it's about nor do they probably 
want to spend that kind of money. I don't know. But this is 
exploration when you talk about astrobiology. It's something 
everybody understands right away. It's also exciting science, 
and not to do it, I mean, it would be like if you're a European 
country in 1500 and somebody says do you think it's worth 
investing in some ships and some crews and send them around the 
world and see if we can map the globe? Obviously it was 
worthwhile.
    Ms. Johnson. Thanks to all of you.
    Of course, research to me is the door to the future. My 
concern is that each year we go through whether we're going to 
cut back on NASA research, and I wonder whether this will have 
an impact to focus more strongly on this. I don't want an 
either-or. But it seems that to do another is to neglect the 
other. How do you think we can continue forth with both bodies 
of research, and what is the importance?
    Dr. Burgasser. I'll take a stab at that. You know, I think 
we have to listen to our citizenry and understand that these 
are questions that excite, inspire and drive interest not just 
in astronomy but across STEM fields and keeps us competitive at 
the world stage, and so an investment in NASA is going to have 
incredible returns down the road across all fields of 
technology, of biomedical science, of new materials, and you 
know, I leave it up to your esteemed colleagues to decide where 
these budgets land.
    Ms. Johnson. It's dangerous.
    Dr. Burgasser. But it is certainly critically important to 
realize that this is investment in our future on many levels.
    Ms. Johnson. Thank you very much. We've learned so much, 
and I want to see it keep going, but I am concerned. Thank you.
    Chairman Smith. Thank you, Ms. Johnson.
    And the gentleman from Louisiana, Mr. Higgins, is 
recognized for questions.
    Mr. Higgins. Thank you, Mr. Chairman.
    Dr. Shostak, it's been stated for decades that some species 
of cetaceans--whales and dolphins--are recognized for their 
intelligence. Would you agree with that general assessment?
    Dr. Shostak. Yes, clearly they have a higher 
encephalization quotient. That's a lot of Greek, but what it 
means is their brain volume relative to their body volume is 
higher than any other critters on this planet other than our 
simian friends and ourselves. So by that measure, they are 
clever. They also can recognize themselves in a mirror. They 
know that when they look in a mirror, they're seeing 
themselves, something your dog can't do.
    Mr. Higgins. Is it generally accepted that these creatures 
have a means by which to communicate with each other?
    Dr. Shostak. There are people that think that. I'm not one 
of them. I knew John Lilly a little bit, and Gerrit Verschuur 
is another guy who thinks that the cetaceans can communicate by 
ESP. I think that there's a great experiment being run that 
disproves the notion of ESP. It's called Las Vegas.
    Mr. Higgins. I would agree with you there.
    But they do vocalize, do they not?
    Dr. Shostak. They do, and in fact, a sort of a statistical 
analysis of the sounds they make shows or at least seems to 
indicate that it's a language. It's not just barking, if you 
will. So yes, they are clever, they are quite clever, but you 
will note that their level of technology leaves something to be 
desired. That may be partly a consequence of living underwater 
where it's hard to smelt metals and so forth and so on. But I 
don't think that the cetaceans are comparable to humans.
    Mr. Higgins. I bring this up because a research scientist 
by the name of Lawrence Doyle at the SETI Institute has studied 
information theory and patterns in animal communication as a 
means of understanding how to detect signals from the noise we 
hear from space, and I'd like your comment on that. Within your 
comment is my own personal consideration that should 
intelligent life ever be discovered, whether or not that's, you 
know, a realistic perspective is subject to debate, I'm sure, 
but should intelligent life in the cosmos ever be discovered, 
if for decades we've been unable to communicate with dolphins 
and whales, how should we ever expect to communicate with 
intelligent life if it would be discovered across the cosmos, 
and how does that relate to Lawrence Doyle's research?
    Dr. Shostak. Well, I certainly agree that the fact that we 
can't communicate with any other species on this planet may 
indeed incline you to think that we would never be able to find 
it elsewhere. I think what it might show is that we might not 
understand anything being sent but, you know, the way we do 
this experiment is not by listening for patterns in any 
signals, messages, such as, ''here's the value of pi,'' or 
''here's the Fibonacci series'' (if you're a Dan Brown fan). 
None of that. We are simply looking at the nature of the 
signal, the kind of signal that transmitters make without 
regard to the message. The message would be much, much harder 
to find in any case, the bits such things as what language they 
use if they use any language, how they've encoded their 
information, the things that separate whale communication, for 
example, from human communication, all that is sort of, if you 
will, literally below the radar. So what we are doing is just 
trying to and find the technology they use. This signal is due 
to a transmitter. What they're saying is not something we'll 
know right away, and maybe never.
    Mr. Higgins. And that would describe Lawrence Doyle's work?
    Dr. Shostak. He's interested in finding out if you have a 
big brain, do you start using language. At what point do you 
start using language? I have to say that he has found 
statistical indications that the dolphins are using language, 
also in many other species he claims, even in ants. I have to 
say I've never been impressed by ants' intelligence, but on the 
other hand, maybe they're not impressed by mine.
    Mr. Higgins. I think that's an excellent time to yield 
back, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Higgins.
    And the gentleman from California, Mr. Bera, is recognized.
    Mr. Bera. Thank you, Mr. Chairman. This is a great hearing, 
right? I mean, it is a seminal question, particularly again if 
we want to stimulate our next generation to really, you know, 
get interested in science. I mean, it's very easily 
understandable. You suggest that it's not Higgs Boson, it's 
``are we alone?'', that search for life which any student can 
grasp and any individual can grasp, and it opens up philosophy, 
it opens up, you know, humanity, et cetera.
    You know, Dr. Shostak, you talked about three different 
methods: direct exploration, space-based telescopes or looking 
for signals. I don't think it's either-or, right? These are all 
complementary modalities that work off of each other and feed 
into the body of knowledge. Given the vastness of space--and my 
question would be, you know, we don't have the funding to do 
everything and look at every piece of information that's coming 
in so some of--you know, with the internet and the 
interconnectedness of the world now is that citizen scientist, 
those citizen astronomers. What are some thoughts and ideas of 
how NASA and other agencies including SETI can use that, you 
know, that mass of humanity in a strategic way to get folks to 
look for those signals or look at the vastness of space but 
then also to encourage our young people, you know, so 
classrooms of students might actually be part of this search 
for life.
    We'll start with----
    Dr. Zurbuchen. So I agree with your notion entirely and 
also that there are opportunities and that we can do that. You 
know, one of the coolest things right now when I was doing my 
Ph.D. on a different continent. My computer at night was 
working for his organization with SETI at home, right, because 
my computer was tied in, many of my colleagues basically gave 
our CPU power away for that. I think right now we have many 
opportunities. Whenever Juno flies by Jupiter, you know, 
there's thousands of people the next day taking the new 
imagery, you know, of all ages, you know, children of all ages 
taking the imagery with wonder and turning art--turning them 
into art, really analyzing them, sometimes actually finding 
exciting science in doing so. So at NASA we're really excited 
about these citizen science type of projects, and we actively 
look for collaborations in areas also we're currently 
throughout the decadal process and otherwise our funding 
emphasis is not high. You should know that last week I was in a 
meeting I think with you, Dr. Shostak. We were in a room, you 
know, where we talked about all aspects of search for life, and 
every time we come back, we want to, you know--as we make 
progress, we look at it again are we doing--putting the money 
at the right place. The reason we're so excited about search 
for life right now is we're really driving up the S curve but 
the slope is enormous right now of the progress we're making, 
and this is one of the most fruitful, really civilization-scale 
questions we can address, so that's why we're so excited.
    Mr. Bera. Dr. Burgasser?
    Dr. Burgasser. Yeah, thank you for asking that question. I 
think it is important to recognize that the decadal process in 
this is one of the ways that we as scientists, a very diverse 
group of scientists, come together and identify what are the 
main ways that we can address some of these outstanding 
questions, and that's an important process because it's a 
competitive process but it's also a consensual process and so 
we kind of come together on this.
    I wanted to touch on your engagement with community in 
terms of the science itself, and certainly the citizen science 
programs such as Planet Hunters and Exoplanet Explorers, 
Background World, SETI at Home have engaged a lot of the public 
to this work, and they have contributed to discoveries, and 
that's one of the amazing accessibility parts of this kind of 
research.
    But I should also say that the importance of this work 
being publicly funded also means that the data and the research 
that we produce is immediately available to the public, and I 
have been able to work with a diverse group of students from 
minority-serving schools, from low-funded schools in San Diego, 
and researchers across the world to actually work on the raw 
data to find these planets, and so that's one of the ways that 
we really engage the public at large is that they can actually 
really do the research because they are using data that's 
funded by the public.
    Mr. Bera. Dr. Kasting?
    Dr. Kasting. I think it's been great that the public has 
been able to get directly involved in SETI, and I think that's 
generated a lot of interest. SETI--as I said in my written 
testimony, SETI got started before the search for simple life 
because the technology is actually simpler than the search for 
simple life, and you know, it's very--it's more difficult to 
get the general public directly involved in the search for 
simple life because you need big space-based telescopes and big 
ground-based telescopes so there's a role for the public but 
there's also a role for government in the search for life.
    Mr. Bera. So it looks like I'm out of time, but Dr. 
Shostak, if you want----
    Chairman Smith. Thank you.
    Dr. Shostak. Oh, just one thing. First, I'm slightly 
embarrassed. SETI at Home is not our project. It's University 
of California-Berkeley. But here's something that hasn't been 
mentioned, and that is the National Academy of Sciences has 
recognized that a very high percentage of people who go into 
science go into science because of what they've seen on 
television and in the movies, and so they have a project, they 
have an office down in Irvine, California, near Hollywood, and 
they in fact--whenever they hear of a new film being made about 
space, they will bring in some scientists to try to get the 
science right. Personally, I don't think that makes any 
difference in the appeal, but the facts are that that sort of 
informal exposure to science has a tremendous effect.
    Mr. Bera. Thank you. I'll yield back.
    Chairman Smith. Thank you, Mr. Bera.
    The gentleman from Florida, Mr. Posey, is recognized for 
his questions.
    Mr. Posey. Thank you very much, Mr. Chairman.
    Dr. Zurbuchen, we often characterize investments in basic 
scientific research as paying off in technical advances that 
will eventually impact our day-to-day lives here on Earth. Can 
you point to some recent examples of breakthroughs in the 
astrobiology field that have had that type of impact?
    Dr. Zurbuchen. I am sure there are examples, and I will 
return with questions for the record. I can give you examples 
that I encountered just recently in astrophysics in general. 
For example, look at some of the mirrors that were developed 
for X-ray optics that relate to this research, mirrors that are 
of course raising incident mirrors that are done at Marshall in 
Alabama, and these mirrors are subject of tremendous interest 
from the biomedical space because of the fact that of course we 
want to focus X-rays also in medical application and spin-offs 
of a variety of, you know, characters of foci can be formed 
with that. They're in negotiations right now so there's not a 
big company right there.
    But we have ample ones of these, you know, stories that are 
forming around our research, and that's also why we're so 
excited about--you know, I've been a part of hundreds of start-
ups in my previous job as an innovation leader at the 
university I worked before, and I really believe in it, but I 
will get back on good examples that are recent and are related 
to this.
    Mr. Posey. Thank you.
    Any of the others care to comment on what you see coming 
from research in the next three to five years?
    Dr. Kasting. Could I just take a stab at that? I don't 
actually know practical things that come out in the next three 
to five years but my colleague Sara Seiger at MIT, who's an 
astronomer, sometimes calls the search for life the second 
Copernican revolution, and so Copernicus figured out that the 
Earth goes around the sun rather than vice versa. We are 
looking to see whether we're alone in the universe and whether 
life is common, and you know, I'm not sure there were practical 
things at the time that came out of the Copernican revolution 
but nevertheless, it changed mankind, and so could this search.
    Dr. Shostak. I might also point out in 1920 if you talked 
to physicists that were worrying about quantum mechanics and 
they themselves would have said there's absolutely no practical 
application of any of this, and now everybody carries quantum 
mechanics around in their pockets.
    Mr. Posey. You know, we just had the March for Science all 
over the world, and of course, a lot of people think there's 
only one answer to all scientists and all science, and that's 
whatever they think, and I remind them that until Galileo, 100 
percent of the world's scientists swore the Earth was flat and, 
you know, you have to ask those questions. You have to question 
what some consider as fact.
    Thank you, Mr. Chairman.
    Chairman Smith. Thank you, Mr. Posey.
    And the gentleman from Virginia, Mr. Beyer, is recognized.
    Mr. Beyer. Thank you. Mr. Chairman, thank you for holding 
this very bipartisan hearing. It's very exciting. And thank you 
all for being here.
    Dr. Shostak, I was reading about METI rather than SETI, the 
Messaging to Extraterrestrial Intelligence, and one of the 
things they said was, they defined--they said that we were not 
a communicative civilization because we don't practice such 
activities as purposeful and regular transmission of 
interstellar messages. Should we be a communicative 
civilization?
    Dr. Shostak. Well, that's really up to you. I mean, there 
are people who think that we ought to take the initiative, send 
signals into space and see what comes back, if anything. I 
point out that this has been done in the past, mostly as demo 
experiments. You know, even the records on the Voyager 
spacecraft and the plaques on the Pioneer spacecraft are 
designed in case any Klingons ever pick these things up, which 
they never will, but, you know, they get a greeting card from 
Earth.
    I don't agree with those who think that this would be 
dangerous. There are people who say that. Even Stephen Hawking 
has made that comment. Because you obviously tip of the aliens 
that we're here, and who knows what they really are like. 
Obviously we don't know anything about alien sociology, and 
maybe they would just come to Earth and incinerate the planet 
on a bet. I don't worry about that personally, but you might 
say that's not good enough.
    Let me simply point out that we have been transmitting into 
space willy-nilly since the war, and it's mostly TV and FM 
radio, it's mostly radar. It's mostly radar. So if you're 
paranoid and you're worried about this, if you think maybe it's 
not a good idea to let anybody who's out there know that we're 
here, then you better be prepared to shut down the radars at 
Reagan Airport, and I don't think you want to do that.
    Mr. Beyer. You mentioned the 70 light-years as sort of 
the--is that because that's when radar and----
    Dr. Shostak. Yes, and also FM radio, but yes, radar, 
television and radar are the things that go out--you know, they 
go right through the ionosphere, and radar transmitters tend to 
be very powerful. If you were looking at the Earth from one of 
these nearby planets that we've talked about here and you had a 
big antenna, you know, as big as this building, you could pick 
up our radars.
    Mr. Beyer. You mentioned a number of times the 
philosophical and theological consequences of discovering life, 
and obviously there's lots and lots in the science fiction 
literature and films and stuff about how people react, 
overreact, go crazy. Are there philosophers or theologians 
thinking about this, writing about it trying to anticipate what 
it would be like?
    Dr. Shostak. There are. There's a lot of research. And 
normally what they do is, try and look for an historical 
precedent for this. I guess it's sort of lawyerly to do that. 
And they say okay, what in history has happened that would give 
us some clue as to what the public's reaction or organized 
religion's reaction would be. But there is really no very good 
precedent for this.
    When I tell people at cocktail parties--not that I get 
invited to many--but if I tell people what I do for a living, 
they'll frequently ask well, if you found a signal, you 
wouldn't tell us, the government would shut you down, right? 
And I said the government doesn't even know what we're doing. I 
don't think they would shut us down. We've gotten false alarms 
in the past. There was no interest by the government. My mom 
didn't even call. Nobody was interested, only the New York 
Times. They were interested.
    But they think that the public couldn't handle this news. I 
think that that is totally false. If you were to pick up a 
newspaper--you won't do that--open your browser tomorrow and 
find news that we'd found a signal coming from 800 light-years 
away, I doubt that you would say I'm not going to work today, 
I'm going to riot in the streets.
    Mr. Beyer. We ran SETI at Home for years with my kids and 
all the different computers, and now we're looking for Riemann 
prime numbers, I guess, because the SETI thing has shut down, 
which----
    Dr. Shostak. We could always use more prime numbers.
    Mr. Beyer. Yeah, we haven't found any prime numbers yet 
either.
    I have talked to scientists, though, who say we've been 
looking for so long, you mentioned 100 million planets, and 
they almost argue that because we haven't heard anything that 
there must be nothing there.
    Dr. Shostak. No, that's a false argument. Look, that's like 
going to Africa, looking for big mammals with long noses that 
can pick up peanuts, and quitting after you've examined one 
city block's worth of real estate. That's equivalent to the 
fraction of our own galaxy that we've looked at. There're 
roughly a trillion planets in our galaxy. There're two trillion 
other galaxies we can see, each with a trillion planets. To say 
oh, well, it's all sterile is a bit self-centered.
    Mr. Beyer. Dr. Kasting, in looking at Enceladus's plume, 
how fast are the gases escaping? Is there any--is this 
something that will go on for millions of years?
    Dr. Kasting. My understanding is that plume will keep 
going. You know, there are four stripes on Enceladus' south 
pole called the tiger stripes, and the plume is coming out form 
there. So this plume has been there for the ten years that 
Cassini has been up. You know, what you want to do is actually 
try to encounter that plume at slower velocities. It's a 
spacecraft moving fast through it that makes it difficult to 
measure. So it would be nice to go back and go through that 
plume. I think it will be there and go through it more slowly.
    Mr. Beyer. And very quickly, I'm familiar with the binary 
stars where the one rotates around the other. When you get to 
the triple star system with Alpha Centauri, are they--what's 
the planetary motion or the star motion that goes along with 
three of them?
    Dr. Kasting. The two bright ones, Alpha and Beta Centauri, 
are close together and orbit pretty quickly. Proxima Centauri, 
the M star which has the planet around it, is far away and it's 
actually not even entirely certain that it's gravitationally 
bound.
    Mr. Beyer. Okay. Interesting. Thank you very much, Mr. 
Chairman.
    Chairman Smith. Thank you, Mr. Beyer.
    The gentleman from Oklahoma, Mr. Lucas, is recognized.
    Mr. Lucas. Thank you, Mr. Chairman, and I agree with my 
colleagues. This is a fascinating topic. It's caught the 
attention of our constituents back home, and from that 
perspective, let me ask the panel: we've invested on the 
federal level, whether it was Hubble before and the first 
generation of space telescopes that caught the public's 
imagination or the money we're spending on James Webb, our 
European friends and a number of folks in Chile and a variety 
of other places spent substantial monies that can be used in 
the exoplanet search work. Visit with me for a moment about the 
technical requirements if we are successful in finding a blip, 
a squeak, a whatever, how we go forward with the next 
generation, what is required to go to the next generation. Do 
we ultimately have to tie every telescope that's on the surface 
of the planet together computer-wise to create that field to 
observe from? Where do we go in the next generation, which if 
we encounter something that's defined as a likely, the public 
will become very enthusiastic for?
    Dr. Zurbuchen. It's my belief that most of the technologies 
that we're going to deploy to answer this question have not yet 
been invented. I really believe that what's going to happen as 
we go forward and look, for example, at microbial life in the 
solar system or we look at exoplanets and look at the first 
emissions of atmospheres using James Webb and other telescopes 
we're building now, there's innovators right now that are 
developing next-generation highly sensitive spectroscopy type 
of tools that even within a few years will be proposed to one 
of our announcements of opportunity at NASA or elsewhere, and 
really will cause that kind of rapid rush forward that is 
really typical of this kind of research. So for me, that's one 
of the amazing parts of this research is that it causes so much 
innovation.
    You know, the first planet around another star was 
announced in 1995, you know. It's a little bit over 20 years. 
Look where we are today. Look at the tools we're using today. 
We never knew to look at dwarves as, you know, we didn't know 
how, right, and so this is where kind of the motherlode is of 
this. So for me, it's really that progress that makes it so 
exciting. Yes, there will be a lot of innovation.
    Dr. Kasting. Could I make a comment on that?
    Mr. Lucas. Yes.
    Dr. Kasting. We've heard about James Webb Space Telescope, 
which is this huge, wonderful telescope that's going up next 
year, but James Webb will only be able to take spectra of the 
transiting planets, which is a small fraction of the planets 
out there. Most of the nearby stars, the planets don't transit. 
So what we really need is big, direct imaging telescopes of the 
same size as JWST or maybe even a little larger but specially 
equipped with coronagraphs or star shades to block out the 
light from the stars so that you can see the planets orbiting 
around it, and so that's my own personal interest. I think 
that's where we have the best chance of finding life.
    Dr. Shostak. In the case of intelligent life, of course, 
every telescope in the world would be aimed in the direction 
from which the signal's coming. You can be sure of that. But in 
terms of what's coming down the pike for instrumentation, the 
Europeans, mostly the Europeans are building what's called the 
square kilometer array, both in South Africa and western 
Australia, and that's an instrument that's 10 times larger than 
Arecibo, which is already 10 times larger than what we're 
using. So that kind of thing would allow us to follow up and 
find other signals coming from other places. Usually in 
astronomy, if you find one of thing, that means you're going to 
find a lot more rather quickly, partially because you know what 
you're looking for.
    Mr. Lucas. Doctor?
    Dr. Burgasser. Thank you, and I want to thank you for 
asking that question. I want to tack on to the technology 
development that we can't even anticipate at this point just 
the techniques that have been developed to find these planets 
were things that were not anticipated early on. So the Spitzer 
Space Telescope, which I mentioned was central for discovery in 
the TRAPPIST planets, when it was launched, it was not designed 
to do what we did with it. It was not designed to look for 
exoplanets and measure these transits and yet it's been one of 
the most successful outcomes of that mission. And so I think 
when you give people tools, they discover new ways to use them 
and ways that we may not anticipate that could actually do more 
with the investments in these facilities than we could have 
expected.
    Mr. Lucas. Thank you very much. Your comments present 
optimism that's very vast and it's fascinating to think that we 
have our echo chamber out 70 years, so to speak, light-years.
    With that, Mr. Chairman, I yield back.
    Chairman Smith. Thank you, Mr. Lucas.
    And the gentleman from California, Mr. Rohrabacher, is 
recognized.
    Mr. Rohrabacher. Let me first apologize that I came in 
late. As you know, we have several hearings scheduled at the 
same time. I will be looking at your testimony, your written 
testimony, and I want to thank the Chairman. We have a Chairman 
who's a visionary, and we're lucky to have him there to be able 
to touch on things like this. I might say that other chairmen 
that I've served under were not quite as willing to go into 
these type of areas because they were afraid of ridicule. I 
mean, you can see it--``Oh, they're out searching for aliens in 
outer space,'' and we need to have a very serious discussion on 
your mission and what's going on, and let me just note that I 
have been a long-time supporter personally of developing 
telescopes of deep space missions as well as astronomy in 
general, knowing that with astronomy we can determine truths 
that are happening out there that affect our knowledge even of 
molecular structure and how it works on the land. So I will 
have to tell you that they didn't have to twist my arm in order 
to get my support for those projects.
    First of all, let me just ask this. I have a 12-year-old 
son, and he would just die if I did not ask this question. With 
what we know now and how you have now just expanded our 
understanding of how far reality goes out from our planet, with 
that in mind, here's my son now: Is time travel possible?
    Dr. Shostak. If you're willing to go to the future. That 
you can do, and you're doing it right now. Going to the past 
seems to violate some basic tenets of physics.
    There's a book out about time travel, a new one your son 
may want to read, and it's--I think it's by Glike, the same guy 
who----
    Mr. Rohrabacher. But actually some of the things you're 
doing now and you're studying will give us understanding maybe 
100 years from now on something that may be an incredible 
breakthrough for humankind like the idea that it's possible to 
have time travel.
    Dr. Shostak. Well, one should never discount the 
possibility of new physics that changes one's attitude, but at 
the moment I would bet against it.
    Dr. Kasting. If I could comment, I don't know about time 
travel but I always thought that travel to other stars was 
impossible but, you know, there's a private group out in 
California called Breakthrough that is studying Project 
Starshot. They want to send a spacecraft to Alpha Centauri and 
so that's something that I never thought was going to happen 
but, you know, it's not impossible.
    Mr. Rohrabacher. Not impossible?
    Dr. Burgasser. Now, time travel I would hedge against. I 
think I agree with Dr. Shostak. But certainly the excitement 
about space travel, that's something that is very recent, and 
honestly technologically very possible.
    Dr. Zurbuchen. The short answer is, I don't know, but the 
one thing I've learned in looking at science is never discount 
options.
    Mr. Rohrabacher. Now, again, I'm going to have a plebian 
approach to my questions, and that is, I watch the History 
channel, and I watch various things that are presented about 
things that we may have spotted on things like Mars where there 
are objects that appear to be walls. Are all of those objects, 
have you just written them off and they're not products of 
other civilizations?
    Dr. Shostak. I think it's safe to say they are not. I get 
emails and phone calls every day from people who claim they 
have good evidence of aliens visiting the solar system, and I 
wish it were true. I wish it were convincing. It would be job 
security for me, after all. But if you look at most of these 
claimed artifacts found on Mars by people who go through, for 
example, the Rover photos and so forth, I mean, they find, you 
know, little statuettes, they find critters like lizards, they 
find oceangoing creatures. They also--there's also a Nazi 
helmet. This may be news to you that the Wehrmacht actually 
went to Mars. All of this are examples of pareidolia, which is 
to say like looking up in the clouds, you can see almost 
anything you want.
    Mr. Rohrabacher. You rule out that any of these things, 
objects that we see are indicative of some lifeform?
    Dr. Shostak. There may be life on Mars but I don't think 
it's manifested in these images.
    Mr. Rohrabacher. What about you, sir?
    Dr. Kasting. I agree with what Seth said, and the images 
are not convincing. I don't see as many as Seth does, but I'm 
interested in looking for Mars in the subsurface--looking for 
life in the subsurface.
    Mr. Rohrabacher. And?
    Dr. Burgasser. Yeah, I would also say I'm not convinced. I 
mean, we do--we have evolved as a species to have incredible 
pattern recognition powers and so we find patterns in lots of 
things. Outstanding claims require outstanding evidence.
    Dr. Zurbuchen. Same here. Basically, I've been personally 
involved in more than one of these instances where something 
comes up and we attempt to deploy great scientists to go look 
at this. In some cases, it's just a camera effect. You know, 
you look at your own pictures and you see kind of weird things 
just because of how a camera works and sometimes it's like what 
he says, you know. It's the lion in the clouds, that type of 
thing.
    Mr. Rohrabacher. I know we're getting a great deal of 
understanding from your labor and your effort that you're 
putting in to this project, a great deal of better 
understanding of the nature of the universe, and we appreciate 
that and we appreciate your advice to us on how to be realistic 
about that as well. So thank you very much.
    Chairman Smith. Thank you, Mr. Rohrabacher.
    The gentleman from California, Mr. McNerney, is recognized.
    Mr. McNerney. Well, again, I thank the Chairman for holding 
this hearing.
    Dr. Shostak, about SETI, you mentioned that SETI's getting 
better at identifying targets and improving--and the equipment 
to be used is also improving. Could you elaborate on what's 
improving in terms of the detection and the equipment that's 
used to survey?
    Dr. Shostak. Yes. To some extent, there's an improvement 
simply in raw sensitivity so that you can find weaker signals, 
but that depends on having lots of antennas. That means putting 
up lots of physical structure. Aluminum hasn't gotten a whole 
lot cheaper in the last 20 years. So that's a very slow 
improvement there.
    The big improvement is in the receiver technology where 
instead of looking at one star at a time, which is what we've 
done--when I say look at a star, of course you're assuming 
there may be planets around it that have somebody with a radio 
transmitter. Instead of looking at one at a time, you could in 
fact look at tens, hundreds, even thousands of stars at a time 
with enough computer processing capability, and of course, that 
capability is coming down the pike.
    The other thing that we're beginning to deploy is what's 
called machine learning. This is where you use massive 
computing power to search for all kinds of patterns in the 
signals. Today we have sort of a dedicated machine that looks 
for one kind of pattern. It's sort of akin to having hearing 
where you can only hear one note. You're not going to really 
get a lot out of a symphony, but if you can, you know, use 
machine learning in this case to broaden the kind of thing you 
could recognize, then that will also speed up the search.
    Mr. McNerney. Let's--and I'm not sure who to ask this 
question, but what's the risk of contaminating other planets 
with--nearby planets, Mars and so on, with Earth biology?
    Dr. Zurbuchen. For missions to places where we expect that 
could harbor life or any organism such as Mars or Europa, we 
use strict protocols referred to as planetary protection, and 
so basically what we do is go look at it in both ways. The 
first one is, we don't want to destroy an experiment so we 
actually take, you know, tremendous efforts to make sure that 
we don't bring a lot of our life there or organisms and so we 
don't destroy an experiment. The other thing, we also want to 
make sure if we found something and brought it back, and that's 
going to be important once we start bringing back samples from 
places like Mars and so forth, we want to make sure that if 
there was life in there that it's not kind of the equivalent of 
a really lethal virus. So, you know, the kind of mechanisms 
that we would use for such bacteria or viruses, we would use in 
this context so we have mechanisms that we use for every one of 
those missions, both classification and also how we actually 
build the missions and land them and so forth.
    Mr. McNerney. Dr. Kasting?
    Dr. Kasting. Could I add a comment to that? I mentioned in 
my testimony that Cassini is going to crash into Saturn at the 
end of the summer. NASA's doing that intentionally for 
planetary protection reasons because they don't want--after 
they lose control of Cassini, they don't want it to crash into 
one of Saturn's moons or the rings.
    Mr. McNerney. Another question is, I mean, with all the new 
information on exoplanets, is there a way to classify all this 
information or are we still sort of ad hoc trying to figure out 
how to put these things into some sort of order?
    Dr. Burgasser. So there are several groups in the exoplanet 
community that have gotten together to develop websites, 
databases that organizes information. I mentioned earlier in my 
testimony the University of Puerto Rico at Arecibo have built a 
laboratory, and they've developed criteria to assess the 
habitability of various planets. There are a number of great 
resources that compile the data on these 3,000-plus exoplanets, 
and again, those resources are publicly available, and so I 
often have my students do research projects to explore these 
catalogs and come up with their own measures of habitability 
and potential for life.
    Mr. McNerney. So is the--I mean, for someone that's not 
immersed in this issue, is there an ability to go to that 
resource and understand what's happening or is it still pretty 
foggy?
    Dr. Burgasser. No, and what I can do is, I can put in the 
written testimony some of these resources, but they actually 
have sort of demonstrations on how to use the data. They're 
extremely well designed, and they have gotten a lot of interest 
from the public.
    Mr. McNerney. Very good.
    All right, Mr. Chairman. I'll yield back. Thank you.
    Chairman Smith. Thank you, Mr. McNerney.
    Oh, without objection, the Ranking Member, Ms. Johnson, is 
recognized for an additional question or two.
    Ms. Johnson. Thank you very much, Mr. Chairman. This really 
has been an exciting hearing, especially as we look toward the 
future, and I'm sorry Mr. Rohrabacher had to leave. Speaking of 
his 12-year-old son, it really is a thing that excites young 
men, young people when we can look to the future and start to 
explore the unknown, and in 30 years we might know a whole lot 
more than we know now, and my question really is to the panel 
here. What do we do as a Congress to make sure that in 30 
years, we're on top of what's going on in the universe? How do 
we move forward? How well equipped will we make sure that our 
young minds are stimulated and interested in this area? I'm so 
grateful for those who came before us who made it possible for 
today, and thanks to all of you, but we have a challenge, Mr. 
Chairman.
    Chairman Smith. Thank you, Ms. Johnson.
    Let me respond very quickly, and I think most members know 
that we are fortunate to have within our Committee's 
jurisdiction STEM education or many aspects of STEM education, 
and in fact, I believe the first two bills that President Trump 
signed last month were two STEM bills that were produced by 
this Committee, and I was over there for the bill signing. And 
we will continue to go in that direction.
    The other thing I think that is good news for us is that 
most agencies had their budgets cut. NASA was one of the few 
agencies that did not incur any cuts, so we have an 
Administration, I think, and a Congress who is very interested 
in space and what's out there.
    Let me thank our witnesses again today. You all have just 
been fascinating and informative, and we appreciate your taking 
the time to be here. Clearly, on the basis of the questions you 
were asked, there is interest across all members in what you're 
doing and the different things that you're doing as well. We 
heard things today we haven't heard before, and that's always 
enough to keep us going and have future hearings on the subject 
as well.
    So thank you all for being here. We stand adjourned.
    [Whereupon, at 11:36 a.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
